No.20-_ _
IN THE

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

CYNTHIA LOZANO,

Petitioner,
• V -

UNITED STATES OF AMERICA,

Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner was appointed counsel during proceedings in the Southern District
of California and while Petitioner's case was pending before the Ninth Circ ·t under
the Criminal Justice Act, 18 U.S.C. Section 3006A.
Dated: September 13, 2021
David J. Zugman
Burcham & Zugman
402 West Broadway, Suite 1130
San Diego, CA 92101
Tel: (619) 699-5931
Email: dzugman@gmail.com
Attorney for Lozano

